No. 20-1432
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, CROSS-, PETITIONER
v.
MAINE COMMUNITY HEALTH OPTIONS, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE UNITED STATES, via e-mail and first-class mail, postage
prepaid, this 1st day of June 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 2,623 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
June 1, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 1, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1432
USA
MAINE COMMUNITY HEALTH OPTIONS, ET AL.

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
STEPHEN J. MCBRADY
CROWELL & MORING LLP
1001 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-324-2500
SMCBRADY@CROWELL.COM
WILLIAM L. ROBERTS
FAEGRE DRINKER BIDDLE & REATH
2200 WELLS FARGO CENTER
90 SOUTH SEVENTH STREET
MINNEAPOLIS, MN 55402-3901
612-766-7508
WILLIAM.ROBERTS@FAEGREDRINKER.COM

